No, 20-1088

 

 

In THE
Supreme Court of the United States

DAVID and AMY CARSON, as parents and
next friends of O.C., e¢ al.,

Petitioners,
v.

PENDER Makin, in her official capacity as
Commissioner of the Maine Department of Education,

Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

BRIEF FOR THE CHURCH OF
JESUS CHRIST OF LATTER-DAY SAINTS;
ETHICS & RELIGIOUS LIBERTY
COMMISSION OF THE SOUTHERN BAPTIST
CONVENTION; ISLAM AND RELIGIOUS
FREEDOM ACTION TEAM, RELIGIOUS
FREEDOM INSTITUTE; CHURCH OF GOD
IN CHRIST, INC, AS AMICI CURIAE
SUPPORTING PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,850 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 10, 2021.

ud.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
